<html>
<title> - THE NATIONAL ORGANIC LAW AT 20: SOWING SEEDS FOR A BRIGHT FUTURE</title>
<body><pre>[Senate Hearing 111-1027]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1027
 
                    THE NATIONAL ORGANIC LAW AT 20:
                    SOWING SEEDS FOR A BRIGHT FUTURE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION


                               __________

                           SEPTEMBER 15, 2010

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/
?



                  U.S. GOVERNMENT PRINTING OFFICE
66-275                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4a5d426d4e585e594548415d034e424003">[email&#160;protected]</a>  

           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                 BLANCHE L. LINCOLN, Arkansas, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES GRASSLEY, Iowa
ROBERT CASEY, Jr., Pennsylvania      JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
MICHAEL BENNET, Colorado
KIRSTEN GILLIBRAND, New York

               Robert Holifield, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

The National Organic Law at 20: Sowing Seeds for a Bright Future.     1

                              ----------                              

                     Wednesday, September 15, 2010
                    STATEMENTS PRESENTED BY SENATORS

Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...     1
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     3

                                Panel I

Merrigan, Hon. Kathleen, Deputy Secretary, U.S. Department of 
  Agriculture....................................................     5

                                Panel II

Beidler, Regina, Beidler Family Farm, Organic Valley/Cropp 
  Cooperative, Board of Directors, NOFA of Vermont, Randolph 
  Center, VT.....................................................    16
Bird, Sarah, Senior Vice President, Marketing, Annie's Homegrown, 
  and Vice President, Organic Trade Association Board of 
  Directors, Napa, CA............................................    21
Harris, Will, White Oak Pastures, President, Georgia Organics 
  Board of Directors, Bluffton, GA...............................    18
Sligh, Michael, Founding Chairman of USDA National Organics 
  Standards Board, on behalf of the National Organic Coalition, 
  Pittsboro, NC..................................................    19
                              ----------                              

                                APPENDIX

Prepared Statements:
    Beidler, Regina..............................................    32
    Bird, Sarah..................................................    38
    Harris, Will.................................................    49
    Merrigan, Kathleen...........................................    51
    Sligh, Michael...............................................    71
Document(s) Submitted for the Record:
Sligh, Michael:
    ``From The Margins To The Mainstream, Advancing Organic 
      Agriculture in the U.S.''..................................    80
Question and Answer:
Chambliss, Hon. Saxby:
    Written questions to Regina Beidler..........................   142
    Written questions to Sarah Bird..............................   144
    Written questions to Michael Sligh...........................   155
Gillibrand, Hon. Kirsten:
    Written questions to Kathleen Merrigan.......................   150
Klobuchar, Hon. Amy:
    Written questions to Kathleen Merrigan.......................   149
Leahy, Hon. Patrick J.:
    Written questions to Kathleen Merrigan.......................   148
Beidler, Regina:
    Written response to questions from Hon. Saxby Chambliss......   142
Bird, Sarah:
    Written response to questions from Hon. Saxby Chambliss......   144
Merrigan, Kathleen:
    Written response to questions from Hon. Kirsten Gillibrand...   150
    Written response to questions from Hon. Amy Klobuchar........   149
    Written response to questions from Hon. Patrick J. Leahy.....   148
Sligh, Michael:
    Written response to questions from Hon. Saxby Chambliss......   155



                    THE NATIONAL ORGANIC LAW AT 20:
                    SOWING SEEDS FOR A BRIGHT FUTURE

                              ----------                              


                     Wednesday, September 15, 2010

                              United States Senate,
           Committee on Agriculture, Nutrition and Forestry
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room 328A, Russell Senate Office Building, Hon. Patrick Leahy, 
presiding.
    Present: Senators Leahy, Stabenow, and Chambliss.

STATEMENT OF HON. PATRICK J. LEAHY, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Leahy. I am delighted to be here today to celebrate 
the upcoming 20th anniversary of the Organic Foods Production 
Act of 1990. Of course, I am joined by Senator Chambliss, a 
longtime friend. and just as I am a former chairman of this 
committee, he is a former chairman of this committee. We are 
being watched by former Chairman Talmadge. Chairman Lincoln, I 
talked with her at length about this hearing yesterday, and she 
has to be in Arkansas on business. But I appreciate her 
arranging for us to have the hearing, and she and I will be 
talking about the results of it when she comes back. This is an 
area in which she is quite interested.
    We talked about the 20th anniversary of the Organic Foods 
Production Act. There are people here in the room who were part 
of that achievement. I would note especially Deputy Secretary 
Merrigan. She worked with us when I was chairman. And we worked 
with Ranking Member Lugar, Dick Lugar, to write the 1990 Farm 
Bill, which this was a part. At times, we felt a little bit 
like Sisyphus with rolling that rock, but we made it. We had a 
strong bipartisan coalition we put together.
    But, Deputy Secretary, I just do want to acknowledge the 
tremendous help you gave during that. I have sometimes noted 
that senators are merely constitutional impediments to their 
staffs who do most of the work, and so I appreciate that.
    But we are now looking forward to not only celebrating 
these 20 years, where do we go the next 20 years? Prior to the 
passage of the organic farm bill, the industry was growing 
slowly. We had farmers and consumers, retailers facing 
inconsistent policies and inaccurate labeling procedures across 
the country. And it is hard to believe today, but at the time 
we had 22 different states trying to manage and four separate 
regulations for organic foods. It made it very difficult for 
interstate commerce and very difficult for consumers.
    The passage of OFPA brought much needed order to the 
industry. It gave consumers the USDA organic label, a label 
with real meaning. The organic law required USDA to develop a 
minimum national organic standard, set us on the course where 
we are today, certified organic farms in all 50 states, nearly 
5 million acres of organic crop and pasture land, an industry 
with sales of more than $25 billion and growing.
    I think back then when some people were asking why am I 
doing this organics bill; you might have a handful of farms and 
it is not going to go anywhere. And I told them I had listened 
very carefully to Vermont farmers who came to me and said, ``We 
are willing to meet higher standards and we will do what is 
right, but give us some national standards so we are competing 
on a level playing field. As long as we follow the rules in our 
state, we want to know everybody is following the rules in 
their state.''
    I said at that time that the only way that this industry 
can grow if the standards are met and they are followed and 
they are enforced. Strong standards do reward farmers who play 
by the rules. They help consumers understand what that label 
means when they buy something that is USDA organic. I mean, the 
proof is in the pudding with a 25-billion-dollar industry that 
is growing. How many industries in America today can say they 
are growing the way this one is growing? But consumer 
confidence is key to the organics industry's growth. It will be 
the key in the future.
    So we have come from those early days where everyone 
thought it was just a crunchy granola program. You have heard 
that expression. You walk in the stores, and organic foods 
occupy prominent shelf space in the produce and dairy aisles in 
the most mainstream food retailers, even big-box stores. We see 
the offerings, organic meats, like the delicious White Oak 
Pastures grass-fed beef and eggs and breads and grains, such as 
Annie's Cheddar Bunnies. I see we have the Cheddar Bunnies 
here. Beverages, even peanuts increasing with every year.
    I should add, I was pleased to host Secretary Vilsack this 
past February at the Northeast Organic Farming Association of 
Vermont winter meeting in Burlington, Vermont. It is the middle 
of winter, Burlington, Vermont. We are a very small state. He 
was welcomed by more than 1,200 people who packed in to see 
him. No surprise, though, since Vermont leads the country in 
the number of organic farms on a per capita basis.
    But I also recall Secretary Vilsack received an interesting 
organic product, a six pack of organic certified and Vermont 
brewed pumpkin ale. I did not ask him how he got that on the 
airplane afterwards, actually, nor did they consume it before 
they got on the airplane.
    [Laughter.]
    Senator Leahy. But today we have more farms and companies 
than ever participating in the organic sector, but we continue 
to experience occasional shortages of organic products when our 
farms are unable to simply keep up with the consumer demand. I 
was concerned in the past that the Department of Agriculture 
had not kept up with the pace of organic agriculture.
    I am pleased today to see an agency that recognizes and has 
to support a diverse menu of options for all of American 
agriculture, including organic agriculture. That strong support 
means strong standards, and I will look forward to hearing from 
our witnesses today about the ongoing implementation of natural 
organic standards.
    I am interested in the recent expansion of the national 
organics program at USDA. We can look back at the success of 20 
years. I want to look forward to the potential success of the 
next 20 years, and I look forward to hearing from all of you 
about the potential challenges you see awaiting this young and 
growing industry.
    I see the distinguished senator from Michigan here, Senator 
Stabenow. We certainly have organic farming in her state. But 
again, I want to thank Senator Chambliss for being here, but I 
especially want to thank Chairman Lincoln for letting us have 
this hearing.
    It may be a small percentage of some of our members of the 
total farmland in the state, but it is growing. It is growing. 
And when we have all this bad news in the economy, it is kind 
of nice to have news about something that is working and 
growing, putting people to work. And I know when I walk in 
farmers' markets or stores and all, I see people heading to the 
organic food.
    Senator Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Well, Senator Leahy, thanks very much 
for your kind comments. And you are correct, you and I have 
been great friends, and we have had the common interest of 
American agriculture at heart and have worked very closely 
together on any number of issues here. And your leadership on 
this issue has particularly been important, and that is why I 
think it is pretty symbolic and significant that you are here 
in lieu of the Chairman today. And we thank you for taking 
time.
    I think you and I have talked about this before, but I 
think this committee has more former chairmen serving on it 
than any other committee. I do not know what that says about 
us, but it is always a pleasure to work with you and I 
appreciate you being here today. And as I say, I think it is 
significant that you are here on the 20th anniversary of the 
Organic Foods Production Act of 1990. Senator Leahy has been a 
dedicated advocate of organic agriculture, was a major champion 
of OFPA's passage. So, Senator, it is fitting to have you have 
the gavel this morning.
    I would like to also welcome Mr. Will Harris of White Oaks 
Pastures in Bluffton, Georgia to the hearing today and thank 
him for his time and efforts in providing testimony to the 
Committee. Will is from my part of the state. He is from Early 
County, which is a couple of counties over from my home county 
of Colquitt County. But we are in the heart of production 
agriculture in our state, and I look forward to his testimony 
as well as the testimony of the other witnesses this morning.
    Organic farming has been one of the fastest growing 
segments of the U.S. agriculture in recent years. When Congress 
passed the Organic Foods Production Act, the U.S. had a million 
acres of certified organic farm land. By the time USDA 
implemented the national organic standards in 2002, certified 
organic farmland had doubled and then doubled again between 
2002 and 2005. In my home state of Georgia, the number of total 
certified organic acres has grown from 1,062 in 2006 to 4,341 
in 2008.
    The Organic Foods Production Act was enacted to set 
standards for organically produced agricultural products. These 
standards are intended to assure consumers that products 
marketed as organic meet consistent and uniform requirements. 
OFPA was also enacted to facilitate interstate commerce in 
fresh and processed food that is organically produced.
    In addition, the OFPA and regulations under USDA's national 
organic program require that agricultural products labeled as 
organic originate from farms or handling operations certified 
by a state or private entity that has been accredited by USDA. 
Working together, these measures ensure consumers that products 
with organic label meet rigorous standards, standards that 
organic crops are grown without using most conventional 
pesticides or fertilizers, and animals raised on an organic 
operation are fed with organic feed, given access to the 
outdoors, and are not given antibiotics or growth hormones.
    Since the passage of OFPA in 1990, Congress and this 
committee have continued to address issues that are important 
to producers of organic food. The 2008 Farm Bill took several 
important steps to provide additional tools to support organic 
agriculture, including extending the Certification Cost Share 
Program, establishing that producers are eligible for technical 
assistance under the EQUIP Program for converting their farm to 
organic production and providing funding for research and data 
collection about the price, production and marketing of major 
organically produced commodities.
    Establishing a reliable certification system and developing 
tools to assist farmers in their transition to organic 
production did not happen overnight, and I join my colleagues 
on the Committee in recognizing just how much has been 
accomplished in the past 20 years.
    Again, I would like to thank all of the witnesses for their 
willingness to appear before this committee and share their 
views about future opportunities as well as obstacles that face 
organic agriculture production.
    Thanks very much, Senator.
    Senator Leahy. Thank you very much, Senator Chambliss.
    Senator Stabenow, did you--I want to say, coming from a 
large agricultural state like Michigan, we think of it as the 
motor state, but it is also a major agriculture.
    Senator Stabenow. That is right. That is right, Mr. 
Chairman. In fact, depending on who you talk to, it is either 
number one or number two. So we have had a pretty good year for 
production agriculture, knock on wood, in Michigan. So we are 
looking forward to the harvests.
    I just want to take a moment to thank you for your 
incredible leadership and vision in really focusing us on the 
importance of organic production; and also to Senator Chambliss 
for your partnership on so many issues and leadership on this 
committee; and to our Chair for allowing us to hold this 
hearing. And we are very grateful for her commitment to 
agriculture broadly in this country.
    I am anxious, Deputy Secretary, just to hear from you. As 
the author of the Specialty Crops Title in the Farm Bill, where 
there is language that adds to support for organic production, 
I am anxious to hear from you about how you think things are 
working and what more we can be doing together. It is clearly a 
growing part of our agricultural base. And from a consumer 
standpoint, you used to walk in and see a couple of shelves in 
the grocery store, and now we are seeing larger and larger 
sections. And I think that just relates to the demand coming 
from consumers as well.
    So it is important, and we are glad you are here. And 
thanks, Mr. Chairman, for holding the hearing.
    Senator Leahy. Thank you very, very, much.
    Our first witness is Kathleen Merrigan, who, as I mentioned 
before, is Deputy Secretary of Agriculture. She has had this 
long involvement with our national organics program. I was 
fortunate to have her serving on my staff for this committee 
during the drafting of the bill. Then she was administrator of 
the USDA Agricultural Marketing Service from '99 to 2001, when 
the implementing of regulation was put in place. She was on the 
National Organic Standards Board from '95 to '99. She has 
worked on agricultural issues for the Food and Agriculture 
Organization of the United Nations, the Massachusetts State 
Senate, and the Texas Department of Agriculture. And prior to 
her appointment as deputy, she taught at the Friedman School of 
Nutrition, Science and Policy at Tufts. And now, of course, as 
Deputy Secretary, she is responsible for a whole lot of 
programs. That is a technical term, ``whole lot of programs.''
    [Laughter.]
    Senator Leahy. So we are glad to have you here. And again, 
I thank Senator Stabenow and Senator Chambliss for taking the 
time to be here.
    Please go ahead.

    STATEMENT OF KATHLEEN MERRIGAN, DEPUTY SECRETARY, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Merrigan. Thank you very much. Chairman Leahy, Senator 
Chambliss, Senator Stabenow, members of the Committee, it is a 
great honor to appear before you today to reflect on the 20th 
anniversary of the Organic Foods Production Act and to 
highlight USDA's current activities in support of organic 
agriculture.
    But I want to begin by turning back the clock to November 
16th, 1989. On that day, Senator Leahy introduced Senate Bill 
1986 at the end of the 101st Congress. And in doing so, he laid 
the groundwork for the 1990 Farm Bill, the organic title within 
that bill. And speaking on the floor, the good senator 
explained to his colleagues the need for the legislation. And I 
am just going to go back and quote you, sir.
    He said, ``Organic certification standards should be 
national in scope, tough and fully enforced. We need a program 
that distinguishes phony organic food, items with a natural 
image but uncertain production methods, from the real thing, 
borne out of ingenious, nonchemical farming. We need a program 
that promotes this industry because the benefits of purchasing 
organically produced food extend beyond the dinner plate to the 
support of farmers who protect the soil and water.''
    So as the Farm Bill began to take shape early in 1990 and 
Senator Leahy introduced a revised organic bill, Senate Bill 
2830, 22 states had state organic programs and standards. And 
as the Chairman said this morning, there was great confusion 
among consumers and serious problems of interstate commerce. 
Against this backdrop, the Committee acted. And Ranking Member 
Senator Lugar as well as Senators Harkin, Conrad, Baucus, 
Cochran and McConnell joined Chairman Leahy in bipartisan 
support of the Organic Foods Production Act of 1990.
    In other words, while I am honored by the invitation to 
reflect on the 20th anniversary here today, clearly, there are 
many people in this room who were there then when this historic 
legislation was shaped by this committee and who have for many, 
many years guided policy in this important and growing sector 
of American agriculture. But my retelling of this time should 
not ignore the real difficulties faced by Congress in achieving 
consensus on what became the National Organic Program.
    Twenty years ago, not everyone was in agreement on the need 
for national standards or on the wisdom of supporting organic 
farming and handling. On the House side, actually, OFPA was an 
amendment on the floor, and it passed by a vote of 234 to 187, 
and it was one of only six recorded votes taken during the 
House Farm Bill deliberations.
    But in the end, Congress authorized the program that is 
essentially market driven. I want to make this point and stress 
this point. The various rationales, economic improvement, 
environmental benefits, consumer protection, have all been 
codified in a way that seeks to allow expression of these 
values through consumer choice. The federal rule is primarily 
that of assuring consensus on a meaningful standard, enforcing 
a level playing field, providing a fair share of government 
resources, and then letting the marketplace drive the scope of 
change and growth. This is the essence of OFPA and other 
related USDA activities in support of organic farmers and 
handlers.
    As you know, implementation of the statute was daunting. No 
other agricultural standard had ever attempted to establish a 
process that would be applied to every type of production in 
every region of the country and every scale of operation. Let 
me just say it took some time.
    A very important aspect of the legislation is the special 
rule that is created for the National Organic Standards Board. 
The statute embraced and elevated the concept of public-private 
partnership. The NOSB was carefully chartered by Congress to 
facilitate both the valid consensus among diverse stakeholders 
on the numerous questions of interpretation, as well as provide 
a special gatekeeper role in respect to substances that are put 
on the national list that are used in organic production and 
processing. This bedrock principle of public-private 
partnership was also embodied by having private and state 
certifying agents maintain the role of inspectors with the USDA 
accrediting this largely private sector endeavor.
    The actual adoption of regulations implementing OFPA was 
itself a history-making process. The first proposed rule issued 
in 1997 generated 275,603 public comments, shattering the 
record for any USDA proposed rule before that and at the time 
was only second in the federal government to a rule that had 
been put out by FDA on tobacco. The second proposed organic 
rule brought in merely 40,774 comments.
    So clearly, this demonstrated the intense public interest 
in this area of federal policy and established the expectation 
that everything we do in this space involves active public 
participation and transparency.
    Once the final rule became effective in 2002, new 
challenges had to be wrestled. A series of audits and reports 
has provided ample and explicit critique, and I believe this 
administration has tackled these issues head-on.
    Let me assure you that USDA is committed to the integrity 
of the organic label. Several key actions were taken very early 
on in this administration.
    First, the National Organic Program was elevated to an 
independent program within the Ag Marketing Service, and the 
NOP leadership position was elevated to the senior executive 
service. We hired Miles McEvoy, who joins me here this morning 
right behind me, who led the Washington State Department of 
Agriculture organic food program for 20 years and was among the 
experts tapped by this committee years ago when we formulated 
the law.
    Second, we took steps to meet the long overdue statutory 
requirement for peer review. The NOP is undergoing an 
assessment process with the National Institute of Standards and 
Technology.
    In addition, USDA's Office of Inspector General announced 
in March this year their findings in the audit that they 
conducted on the NOP. They came up with 14 recommendations that 
provided valuable information, highlighted the necessity for 
reforms within the program, and we are in the process of 
implementing those. We will conclude with all of our work by 
the end of this year.
    Secretary Vilsack announced that this is the age of 
enforcement, that the rules are now well-known, and we need to 
act more forcefully and in a more timely manner when we have 
issues of concern in terms of people following the rules. 
Already this year, the National Organic Program has issued six 
civil penalties, more than all of the civil penalties issues 
during the first seven years of the program.
    Congress, of course, has played a most crucial role in 
enhancing the National Organic Program by increasing funding 
for the program. During early implementation of the rule from 
2002 to 2007, appropriations never exceeded $2 million a year. 
But for Fiscal Year 2009, Congress appropriated $3.87 million 
for the NOP and 6.97 million for Fiscal Year 2010. So we are 
building a more robust program and increasing our staffing.
    Now, I would like to step back and say let's look beyond 
the National Organic Program at USDA-wide organic activities. 
When the final rule was published in December of 2000, then 
Secretary Glickman said that organic farmers need more than 
regulation, more than the National Organic Program, and we 
discussed a series of initiatives to pursue.
    Three months ago, Mark Lipson, who is also with me here 
today, left his organic farm to join the staff of the Marketing 
and Regulatory Program mission area to help coordinate USDA-
wide organic activities. Mark is another Organic Foods 
Production Act old-timer, as he was the farmer who first came 
to the Senate Agriculture Committee 21 years ago and convinced 
us that national legislation was necessary. Mark is assisted by 
an interagency group of staff who are discussing ways to better 
integrate organic needs throughout the programs of the 
Department.
    The 2008 Farm Bill included a fivefold increase in 
mandatory funding. Most of it is for Organic Research Program 
and the Cost Share Assistance Program. We have also moved 
forward on other 2008 Farm Bill initiatives, crop insurance, 
Conservation Stewardship Program, the EQUIP Program, NASS 
surveys, and the collection of market news reports. These 
initiatives are implemented, significant in making a difference 
for the industry.
    So in the end, where do we stand today? In 1990, organic 
was an exotic item in the average grocery store. The Committee 
report on Senate Bill 2830 noted, ``Consumers find little to no 
organic food in the major shops around the country.''
    Times certainly have changed. For 2010, retail sales of 
organic food are forecasted to be approximate--I am going to up 
your number, Senator Leahy, up to $27 billion, we hope, this 
year. Two-thirds of U.S. consumers buy organic foods at least 
occasionally, and 28 percent buy products weekly. Surveys show 
that consumers of organic food are diverse in income level and 
in ethnicity, race. Nearly 90 percent of all food retail 
outlets stock organically produced items from the national 
warehouse chains to your local convenience stores. Underpinning 
this growth are the national standards established by Congress, 
the USDA seal and the hard work of many people to ensure the 
integrity of the organic label.
    Let me conclude by addressing what may be a question on 
people's minds. Are we overemphasizing organic? While my 
testimony here today documents an earnest and comprehensive 
effort underway at USDA to assist the organic sector, I must 
note that it is only a small portion of USDA's portfolio of 
work. Estimates are that at retail market, organic is now about 
4 percent of market share.
    To benchmark where we are in our USDA effort, I looked 
closely this week at our research expenditures. Perhaps I did 
so mindful that in 1997 a critique of USDA's research programs 
was issued by the Organic Farming Research Foundation, and they 
found at that time that USDA was spending less than one-tenth 
of 1 percent of their research dollars on organic.
    During the last 10 years, from 2001 to 2010, our current 
analysis shows that USDA's research investment in organic 
averaged about 1.5 percent of all research expenditures. This 
fiscal year, we will have spent an all-time high of 2.6 percent 
of our research dollars on organic. Are we investing consistent 
with market share? The answer is no.
    I believe we have lived up to Chairman Leahy's charge upon 
reflection going back to those days, the charge that he issued 
to the Congress. We have national standards that are tough, and 
we are increasing oversight and enforcement. We are integrating 
organic throughout USDA to, as he said, promote the industry 
and support farmers.
    In closing, I want to thank the Chairman and the Committee 
for all you have done to assist this vibrant and growing sector 
of American agriculture. Thank you.
    [The prepared statement of Ms. Merrigan can be found on 
page 51 in the appendix.]
    Senator Leahy. Thank you very much, Madam Secretary. And I 
would just ask a couple questions and then go to the others 
because I know we have a number of witnesses here.
    I find that I am seeing in stores and elsewhere, more 
products are labeled ``natural.'' It does not say ``organic.'' 
It just says natural, and a lot of--millions of dollars are 
being spent to advertise it. It reminds me of where we were 20 
years ago when people said organic and nobody knew what it 
meant.
    I am curious about what you think of this new natural label 
on products. Does it cut into sale of organics and is there any 
real definition of it? The natural label actually today comes 
under the purview of the FDA, and they do not define the word.
    I was reminded of this recently when the Vermont 
agriculture secretary, Secretary Allbee, complained about a 
company that is trying to market its syrup product as all 
natural, something that is sacrilegious in Vermont. Even though 
it contained food coloring, it was actually a blend of sugar 
and thickening agents such as xanthan gum. I cannot imagine it 
tastes anything like real maple syrup.
    But, I mean, do we need to--we did an organic label. Do we 
need to do some standard for natural, or is this just a way 
that a lot of companies can try to get into this burgeoning 
market without having to do any of the work that organic 
farmers do?
    Ms. Merrigan. That is a big question, Senator.
    Senator Leahy. I know, but it is going to be a major issue 
in coming years.
    Ms. Merrigan. Absolutely. Well, when I look back in 
history, one of the things that I recall when we were 
developing the legislation, some of the people at the table 
were in the natural livestock market and were very frustrated 
because they felt that the natural label at that time was 
becoming somewhat meaningless in terms of what they wanted to 
do in the market and were really seeking an organic claim 
because of that.
    We do have a natural responsibility around natural label at 
USDA through the Food Safety Inspection Service. And we 
recently put out a year ago an ANPR, advanced notice of 
proposed rulemaking, on the meaning of the natural label, 
trying to gain more information about how we could better serve 
the industry and consumers in making that a meaningful label 
claim. And so that is work that is ongoing at the Department.
    In terms of FDA's responsibilities here, of course, that is 
everything else besides the FSIS turf. That is a big, big part 
of your supermarket that uses the term natural. And I know when 
we did the final rule for the Organic Foods Production Act, one 
of issues that I had was what do you do when you have a company 
that has organic in their name, the Organic Maple Syrup 
Company, and if it is not really organic, what do you do? And 
at the time, the Federal Trade Commission was telling me that 
those people would have to be grandfathered in because you 
cannot just completely decimate a company by making them change 
their whole name.
    I do not know if FDA would confront similar battles if they 
wanted to try to----
    Senator Leahy. If they do not, then do we pass legislation 
that defines it?
    Ms. Merrigan. I think it might take legislation. I do not 
know their authorities as well as I do--but I think that would 
be a tough one for them to do just with current authority.
    Senator Leahy. I was glad to hear what you said about what 
USDA has been doing since the 2008 Farm Bill in the last year 
to ensure that organics are not housed at AMS or in the 
National Organics Program but placed within all the agencies 
that--the Department of Agriculture.
    I know over the last two years in Vermont, the new organic 
initiative within EQUIP, which helps farmers install products 
as necessary to maintain or obtain organic certification, has 
awarded 35 contracts around our state, and that has been very 
helpful.
    What is the Department doing to integrate organics further 
among the different agencies and what are some of the steps you 
see coming up?
    Ms. Merrigan. Well, we are asking every agency to sit 
around the table and figure out how organic fits into their 
mandate of work. Even in those programs where there is a 
specific mandate for us to take on organic, as in the EQUIP 
program, as you pointed out, we still have a lot of work to do 
in terms of training our staff in understanding what organic 
producers confront and doing the outreach that we need to do to 
the communities of interest to let them know that these 
programs are available for their use. So in the Fiscal Year 
'09, we had spent about $36 million in the EQUIP program on 
organic practices, and in fiscal year '10, we expect that will 
be somewhat less, probably in the range of $26 million. But 
that is, to me, an indication that we need to get the word out 
more. We need to work with various interest groups who work 
closely with organic farmers----
    Senator Leahy. Yes, well, let us work with you to get that 
word out because I have seen the success of the program, and it 
is important.
    Before my time runs out, last summer the U.S. and Canada 
announced an historic agreement on organic equivalency 
standards. Now, that vastly expanded organic trade 
opportunities for American farmers. Now, the European Union is 
the largest consumer market for organic products.
    When are we going to have a similar equivalency agreement 
with the EU? If that means we open our doors to organic 
products from the EU, how do we ensure that we do not get hit 
with substandard imports?
    Ms. Merrigan. We are in the process of discussions with the 
EU. They are recent. They are going to come to this country 
soon to have meetings with us. It is going to take some time. 
There is some significant differences between their regulation 
and our standards. For example, they allow use of antibiotics, 
and we do not.
    So this is going to take some time as the Canada agreement 
did. We were in discussion for at least a couple years before 
that equivalency agreement was developed. But we believe that 
this represents a great market opportunity for our farmers and 
ranchers, and so we want to pursue this equivalency discussion. 
They are very earnest as well.
    One of the things that we are also working on is with 
trying to develop the codes that are necessary so we have a 
better understanding of what exports are--what is happening in 
the export market. And we have staff in our Foreign Ag Service 
working on that now.
    Senator Leahy. Well, I want our farmers to be able to 
export, of course. I mean, this is good for our country and our 
economy. I just do not want them to say that the downside has 
to be face a flood of imports that do not meet the standards 
that we have to meet. We saw this with toys from China and a 
lot of other things.
    Senator Chambliss.
    Senator Chambliss. Thanks, Senator Leahy.
    Secretary Merrigan, you have placed an emphasis on helping 
producers supply local markets and developing regional food 
hubs. One way to help these producers is to avoid stifling 
innovation through over-regulation. On our second panel, we are 
going to hear from one of my constituents who has embraced 
regional foods by building his own federally-inspected packing 
plant to process his beef.
    Recently, the Grain Inspection Packers and Stockyards 
Administration issued a proposed rule to regulate how packers 
buy and sell their livestock. Given the vague language in that 
proposed rule and the very brief economic analysis that 
accompanied it, is USDA taking steps to analyze the regulatory 
consequences for small producers and co-ops who vertically 
integrate their operations?
    Ms. Merrigan. Senator, that proposed rule, I am not sure if 
we are going to get as many comments as we got in that 265,603 
in the first proposed rule on organic. But clearly, it has 
enlivened the countryside. People are really reading it. They 
are providing comments to us. Because of all the interest, we 
have extended the comment period to November 22nd. And so we 
will wait until we get the full record in of people's input to 
act, of course. But I want to assure you that we will be very 
cognizant of the concerns of small and mid-size producers as we 
move forward.
    Senator Chambliss. Well, I would just say that this is 
really a critical proposal that is coming out of GIPSA in that 
I am not sure we have ever seen anything like this in American 
agriculture before. We have had issues with vertical 
integration, and we will always have issues with vertical 
integration. But if you have got somebody that is making the 
investment and putting the time and work into producing a 
better product and they are not going to be able to get 
compensated for that, then that type of regulation is going to 
stifle innovation and is not going to be helpful. So I hope as 
we go through that discussion on that proposed regulation--and 
while you may not have as many as you had under the organic 
proposal 20 years ago, let me tell you, it is just as 
emotional, I promise you, because I have heard from them, as 
has everybody else on this committee.
    The Department released the 2008 Organic Survey earlier 
this year. By reviewing that document, we are able to gain a 
better understanding regarding the size and scope of the 
organic industry. In reviewing the tables, it is interesting to 
note that 15 percent of all organic farms, those with sales 
higher than $250,000, are responsible for 82 percent of all 
sales. And the majority of farms, those with sales less than 
$50,000 annually, represent only 2 percent of all sales. A 
similar statistic for all farms in the 2007 census would be 
that 10 percent of all farms represent 85 percent of sales.
    It would seem that organic agriculture utilizes the same 
advantages of scale and concentration as we see in the rest of 
U.S. agriculture. What is your view on this? Do you see 
concentration and future consolidation in the organic industry 
to be as much of a threat to this sector as the Department 
views trends in the livestock or seed industries?
    Ms. Merrigan. Absolutely, we have seen consolidation in the 
organic marketplace, and that is of concern to a number of 
players. We want that marketplace to be competitive, and we 
want there to be opportunities for farmers and ranchers in all 
50 states of all various sizes. So we will keep a very close 
eye on that.
    Let me say that I think that this market continues to grow 
even in this economic downturn. We may not be in double digit 
growth every year. We are more at the 17, 15 to 17 percent 
market, but it is still growing. And what we also see from that 
NASS survey is that while the farmers are having higher costs 
of production, they are also getting a higher net at the end of 
the day. And that is not relative. That is whether you are a 
big guy or a little guy or a middle-sized guy; that people are 
able, through those premiums and through their production 
practices, able to make a livelihood out of organic. I think 
that is good news, and I think that will continue.
    Senator Chambliss. Thank you.
    Senator Leahy. Thank you very much, Senator Chambliss.
    Senator Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman.
    Welcome again, Deputy Secretary. We are glad to have you 
here and wanted to turn to food safety since we have a very 
important bipartisan effort. And a lot of wonderful work that 
has been done in the Senate, and we intend at some point to be 
able to get this all the way to the finish line. But part of 
this legislation that has been brought to the floor includes a 
bill of mine on technical assistance for small growers, 
producers, wholesalers and so on. It is called Growing Safe 
Food Act, and I am very appreciative that Chairman Harkin and 
Ranking Member Enzi and Senator Durbin and others have been 
willing to put this in the bill.
    The FDA is the lead agency to oversee and regulate the 
safety of fruits and vegetables under this legislation, but the 
USDA has a very important role to play in this. And I know that 
as we have been very involved in organics, as we are talking 
about today, given the USDA's leadership on good agricultural 
practices and good handling practices, what continued role do 
you think or expanded role should USDA be playing to ensure on-
farm food safety? And could you talk about training and 
technical assistance that can improve food safety for organic 
producers and any other ways that the USDA and FDA can be 
working together to ensure the safety of organic fruits and 
vegetables?
    Ms. Merrigan. Well, we certainly look forward to the 
Congress completing work on food safety legislation, a high 
priority for President Obama, a high priority for Secretary 
Vilsack as he is a member of the Food Safety Working Group.
    There has been a lot of exchange of information of late 
between FDA and USDA. We are not the primary focus of the 
legislation, but we have a lot of expertise to lend to USDA. 
And for a matter of fact, we lent them--we detailed one of our 
top produce knowledgeable people from the Ag Marketing Service 
full-time to FDA to help them through their hearing process to 
better understand how the industry works, what the concerns are 
out there.
    We have also had a number of meetings talking about 
wildlife and different kinds of farms, conservation benefits, 
how does that fit into their thinking about what constitutes a 
safe food system. I think that is ongoing work, and we hope 
that it will be fruitful.
    There are a lot of different gap programs around, as you 
likely know. And one thing that we have been doing is talking 
with our colleagues at industry, like United Fresh, to figure 
out if we can help producers by having some more 
standardization of gap so that there will not be a lot of 
confusion, and this gap is better than that gap, and trying to 
lend our expertise in what would make a very strong system. We 
have a number of efforts to do training and outreach to the 
farming community, but again, a lot of it is we are dressed up 
and ready for the party and waiting for that legislation to 
pass.
    Senator Stabenow. Yes. Well, we are as well, so we are very 
hopeful that we are going to see that happen very soon.
    Let me talk about crop insurance for a moment. It is very 
important for all of our growers in terms of risk management 
strategy. And I am pleased to see the Department made progress 
recently in this regard by offering price selections for four 
crops and by eliminating the 5 percent surcharge with respect 
to certain tree crops, which is critical for us in terms of 
ensuring suitable risk management products for organic growers.
    Could you describe the actions that the Department will 
take to build on these first steps and continue to expand crop 
insurance offerings for organic farmers?
    Ms. Merrigan. Well, thanks for the recognition of the Risk 
Management Agency's efforts in this regard. We do have some 
crop insurance tools, some risk management tools out in the 
street now for the 2011 crop, for cotton, corn, soybeans, 
processing tomatoes, eliminated the surcharge, as you said, on 
10 different crops. That is good news.
    Those were the areas where we had sufficient data that 
allowed us to develop those instruments. The challenge ahead is 
to develop more data so that we can do that for a larger 
expanse of what is out there in the organic marketplace. We are 
working with the Ag Marketing Service, Economic Research 
Service, as well as Risk Management Agency and some outside 
contractors to develop the kind of data that we need.
    We also want to learn from the experience of offering these 
tools in the 2011 crop year and see how they work. I do not 
want to put instruments out there that fail. We are proceeding 
with caution and with great optimism.
    Senator Stabenow. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Leahy. Thank you.
    Secretary Merrigan, it has been great to have you here. I 
am going to submit, for the record, a question, please look at 
carefully, on the best way USDA can enforce the certification 
standards. I know one of the witnesses coming up, Mr. Harris, 
talks about those who cut corners and flat out cheat, and I 
share that concern. In a different life, I could lock people up 
who did that, but I just want to know what you would recommend, 
so please look at that carefully.
    [The information can be found on page 148 in the appendix.]
    Ms. Merrigan. Absolutely.
    Senator Leahy. Thank you. It is so good to have you here. 
It feels like old times having you here in this committee. 
Thank you very, very much.
    Ms. Merrigan. Thank you, sir. Thank you.
    [Pause.]
    Senator Leahy. First, I would like to welcome Ms. Regina 
Beidler of Randolph Center, Vermont. I was in Randolph a couple 
weeks ago for an event. I love the place. I love the town. She 
is an organic dairy farmer with Organic Valley. Regina and her 
husband Brent got their start farming with my friend Beth 
Kennett at Liberty Hill Farm in Rochester, Vermont, another 
very pretty town. I helped get them started. We got you your 
first farm job, your first heifers.
    Ms. Beidler. They were one of the important people who got 
us to where we are now, part of the journey there.
    Senator Leahy. And if you ask anybody who knows, they will 
tell you that Brent and Regina are passionate about farming and 
building a community. All their work, both on and off the farm, 
is directed to forge connections between the people, the food 
and the land. As a native Vermonter, that means a lot to me.
    It is clear in her role as the coordinator of the Farm 
Ambassador Program with Organic Valley and serving on the board 
of directors for the Northeast Organic Farming Association of 
Vermont, I think their farm offers not only a model for the 
future of farming in Vermont but I think in many other parts of 
the country.
    I know with Mr. Harris, I have heard nice things about you 
from your distinguished senator, Senator Chambliss.
    Saxby, could you do the honors, please?
    Senator Chambliss. Well, thank you, Senator Leahy.
    I would like to welcome Mr. Will Harris of Bluffton, 
Georgia to the Committee. As I said earlier, his home county of 
Early County is just a couple counties away from mine, right in 
the heart of agricultural country there in our state. Mr. 
Harris is fourth generation cattleman, runs the same farm his 
great-grandfather started in 1866, and if you will think about 
that date, that was a very difficult time in the economic 
history of our part of the country.
    White Oak Pastures is a 1,000 acre cattle ranch in 
southwest Georgia. Mr. Harris earned a degree in animal science 
from the University of Georgia's College of Agriculture in 1976 
and returned to the farm after graduation. It is interesting 
that in the mid '90s Mr. Harris began switching his cattle from 
their traditional grain diet to 100 percent forage diet. In 
addition to embracing an organic operation, Mr. Harris also 
built a processing facility on his farm that is USDA approved, 
and that is one of the few on-farm facilities in the country, I 
believe. His story about converting his cattle operation from a 
traditional model is a compelling one, and I know my colleagues 
will be interested and will benefit from that testimony.
    Like thousands of farmers and ranchers across the country, 
Mr. Harris wants to maintain a thriving agricultural operation 
that will be attractive to his children so they will continue 
the family business. He has three daughters that are involved 
in White Oak Pastures, and they have proven that their 
operation can be successful not just for the family but also 
for the local economy, as they are one of the largest 
privately-owned operations in Early County.
    Mr. Harris also serves as president of the Board of 
Directors of Georgia Organics, and again, I appreciate you 
being here to testify today.
    Senator Leahy. Thank you very much.
    The next witness is Michael Sligh.
    Did I pronounce that correctly, sir?
    Mr. Sligh. Yes.
    Senator Leahy. He is a founding chair of the National 
Organics Standards Board. He is a founding member of the 
National Organic Coalition. He has a lifelong interest in 
sustainable farming. He grew up on a ranch in West Texas. And I 
assume you saw some of the challenges that farmers faced at 
that time. He has more than 30 years experience in agriculture 
practice and policy analysis. He worked to support farmers in 
organic agriculture. He lives and works and farms in North 
Carolina.
    The final witness will be Sarah Bird. Ms. Bird is the 
senior vice president of marketing for Annie's, where she 
manages all marketing initiatives for the company's brands. I 
just want you to know the staff made darn sure it is here. She 
manages all marketing initiatives for the company's brands, 
Annie's Homegrown, Annie's Naturals. Before working at Annie's, 
she worked for diverse food companies such as Frito Lay, Nestle 
and PowerBar; has been named as one of Ad Age's Top 50 
marketers.
    She serves on the Organic Trade Association board of 
directors as vice chairman. The Organic Trade Association, of 
course, is the trade association for organic industry in North 
America.
    I was pleased to help the Organic Trade Association 
announce just last week their new headquarters in Brattleboro, 
Vermont. And I was very pleased, one, to see Vermont welcome 
them, but I was very pleased to have them there because I have 
worked over the years with the Organic Trade Association and 
watched what they have promoted, now both in the United States 
and Canada. So they will be a welcomed neighbor in our state.
    So, Ms. Beidler, can you please go ahead? When did you come 
down?
    Ms. Beidler. I arrived yesterday.
    Senator Leahy. Yesterday, okay. I was going to say I hope 
you were not on that 6:00 a.m. flight that I sometimes take to 
come back here from Burlington. And I swear every time I do I 
will not do that, until I do it the next time.
    Ms. Beidler, go ahead, please.

STATEMENT OF REGINA BEIDLER, ORGANIC VALLEY/CROPP COOPERATIVE, 
              BOARD OF DIRECTORS, NOFA OF VERMONT

    Ms. Beidler. Thank you. Thanks for your kind words as well 
and for this opportunity, Senator Leahy, to be a part of this 
conversation today.
    My husband Brent and I own and operate a 145-acre organic 
dairy farm in Randolph Center, Vermont. We currently milk 30 to 
35 cows and are member-owners of Organic Valley. Our farm also 
produces a small acreage of grains, which we grow for local 
human consumption.
    Although we are often classified as first generation 
farmers, we like to say that farming skipped a generation in 
our family since both of us had grandparents who farmed and the 
experience of spending time with them as children influenced 
our own decision to enter farming.
    Brent's grandparents owned a small dairy farm in 
Pennsylvania in which they raised 13 children. As a child, 
Brent spent many summer weeks on the farm, riding tractors, 
following family members through milking and chores, and 
running down the stairs ahead of his teenage uncles early in 
the morning. All of this caused his grandfather to exclaim, 
``Now there is a boy that can farm. He can get up in the 
morning.''
    The seed was planted with Brent, and 12 years ago after 
pursuing schooling, overseas volunteer work, and working for 
other farmers, our dream of having our own farm was realized.
    Our decision to pursue organic farming was influenced by 
several factors. During Brent's college years, his youngest 
uncle had taken over the family farm. He was well respected in 
his area with a registered herd of high-producing cows that 
were making record milk production in his region. Despite this, 
the farm was losing money. The cows were not as healthy as 
Brent's uncle would have liked, and the spring that provided 
water for the farm was contaminated by nitrates from chemical 
fertilizers used by several farms that surrounded the spring.
    Brent's uncle completely changed his production practices, 
shifting to an emphasis on rotational grazing, discontinuance 
of use of chemical fertilizers, and adoption of organic 
practices even before an organic marketplace existed. The 
results were clear; improved soils, healthier animals, and, 
over time, a spring that was able to purify itself. Brent was 
able to watch this change firsthand and saw the benefits to 
farm, family and animals.
    Another influential person was Dr. Bill Murphy, who was a 
professor at the University of Vermont, and introduced many 
farms in our state to the practice of rotational grazing. Dr. 
Murphy and his team traveled the state setting up grazing 
systems on farms and documenting the results in practical terms 
that were helpful to farmers. Although rotational grazing is 
utilized by a wide variety of farms, it brought many people 
down the road towards organic production.
    On many farms, including ours, rotational grazing is the 
foundation of a healthy organic system. There are substantial 
benefits to rotational grazing; access to the highest quality 
forage, exercise and socialization time for the cows, decreased 
or eliminated grain feeding due to the high nutritional content 
of pasture, and a decrease of on-farm fossil fuel use as cows 
harvest their own feed and deposit their own manure during the 
six months of the grazing season.
    When Brent and I were approaching the end of our transition 
to organic production in 2000, we began to look at our options 
for an organic milk market. Organic Valley came to Vermont at 
that time looking to establish a pool of farmer-owners in the 
state. We heard one message quite clearly. Organic Valley was 
started by seven farmers who wanted control over the sale and 
marketing of their milk. Over 20 years later, the primary 
philosophy that continues to undergird the cooperative is that 
farmers are paid a fair and sustained pay price. We are allowed 
to stay at a farm size that works well for our family and farm 
while having the advantage of the collective marketing power of 
many farms working together. Since we joined Organic Valley 10 
years ago, we have seen the cooperative grow from about 300 
family farms nationally to over 1,600 farms today with sales of 
$622 million.
    In my full testimony, I make a number of observations and 
comments about the opportunities and challenges I see for 
organic farming looking into the future and in which I would 
ask for your consideration and assistance. Briefly, those are a 
thanks to all of you on this committee to working with the USDA 
on the strict access to pasture rule that is now in place. As 
Senator Leahy mentioned, organic farmers are happy for strict 
regulation that reassures the consumer that food they are 
purchasing is produced in the way they expect.
    Genetically modified alfalfa is a concern to organic 
farmers. We count on perennial crops as a key tool in our 
production and crop rotations. Introduction of GMO perennial 
crops will negatively impact any farmer, conventional or 
organic, who chooses not to use GMO seed.
    More support for organic research is essential moving 
forward, and I think that has been noted in some of the 
comments already today.
    Finally, technical assistance and certification 
reimbursement programs are important tools to bring new farmers 
to the growing field of organics and encouraging them to 
continue.
    It has been our pleasure as a family to be part of the 
organic community that marries our philosophical beliefs with 
the ability to farm profitably. Earning our livelihood through 
farming, in a way that is beneficial to water, animals and 
soil, while at the same time meeting our family's needs, allows 
us dignity and the enjoyment of farming to rest in our daily 
experience. Thank you.
    [The prepared statement of Ms. Beidler can be found on page 
32 in the appendix.]
    Senator Leahy. Thank you. And your full statement, which I 
read, was very complete, will be made part of the record, along 
with the attachments to it.
    I loved what you said about also your philosophical part. I 
know Marcelle and I go, usually in the summer in our home, to 
different farmers' market on the weekend. Now, we are trailed 
by eager grandchildren. And talking to the farmers, I hear that 
over and over again.
    But let's go on. I am going to finish everybody's 
testimonies, and then we can ask questions.
    Mr. Harris, of course, you have been introduced by Senator 
Chambliss. Please go ahead, sir.

   STATEMENT OF WILL HARRIS, WHITE OAK PASTURES, PRESIDENT, 
              GEORGIA ORGANICS BOARD OF DIRECTORS

    Mr. Harris. I am from Georgia, Mr. Leahy. I do not have 
many words to say to you. It might take me a little bit longer. 
If you feel the need to interpret, please feel free to do so.
    [Laughter.]
    Mr. Harris. I am very grateful and humbled to have been 
asked by Senator Chambliss to address you today and share my 
views on the state of the National Organics Program. Thank you, 
sir.
    I would also like to thank each of you and your 
congressional colleagues for creating, supporting and working 
to refine this program.
    White Oak Pastures is my farm, and it is the largest USDA-
certified organic farm in the state of Georgia. My family has 
raised cattle on the same farm since 1866, and my daughter is 
the fifth generation of our family to be employed on our farm. 
We raise beef as certified grass-fed, certified humane, and 
animal welfare approved. We also raise sheep, turkeys and 
chickens. Our beef is sold by Whole Foods Markets from Miami, 
Florida to Princeton, New Jersey.
    We have constructed our own USDA-approved beef abattoir on 
our farm. It is a zero-waste facility, and 40 percent of its 
energy needs are supplied by solar panels. It is one of a very 
few such on-farm facilities in the country. We are about to 
begin construction of our own farm poultry processing plant 
that we hope will also qualify for a USDA certificate of 
inspection as well.
    I am proud to say that my farm is one of the largest 
privately-owned employers in Early County with an annual 
payroll of over a million dollars. This demonstrates that 
organic farming is more than just a hobby. We are an industry 
that can provide hundreds of thousands of jobs across the 
country. These organic farms stimulate the economies in rural 
areas where help is so desperately needed. I am proud to say 
that my ranch is a testament to that a fact.
    When I am not on my farm, it is my honor to serve as the 
president of the board of directors of Georgia Organics. It is 
in that capacity that I am going to get now to the brass tacks 
for the discussion about the pros and cons of the National 
Organic Program and how it functions today.
    There is no doubt that the program has been vital in 
bringing sustainability and improved land stewardship to the 
American agricultural industry. The National Organic Program 
has significantly improved production practices that protect 
our soil, air and water quality. We can only speculate how many 
millions of tons of carcinogenic pesticides have not been used 
because of this program or how many tons of greenhouse gases 
have been eliminated.
    The program provides consistent and strong marketing 
opportunities for farmers across the country. It offers price 
premiums in the marketplace for producers who raise products 
that have been certified organic. The program gives consumers 
the choice of eliminating toxins, additives, GMOs, artificial 
hormones and antibiotics from their diet.
    Georgia Organics appreciates this opportunity to share what 
we would consider to be room for improvement. I suspect that 
you have heard some of these before. We would like to see the 
program more strongly enforce its certification standards and 
employ punitive measures for producers who cut corners or flat 
out cheat. We worry that the lack of oversight over time may 
weaken public trust, undermining the efforts of those of us who 
are committed to eliminating the use of synthetic fertilizers, 
chemicals, hormones and antibiotics for both environmental and 
public health. We would also like to see the program continue 
and expand its Cost Share Program with state governments to 
offset certification cost, particularly for first-time 
applicants.
    You should also know that the National Organic Program has 
significant partners across the country that support its 
mission of perpetuating sustainable food and farms. At Georgia 
Organics, we are committed to providing regular educational 
services on organic production and certification. We shall 
continue to partner with researchers, educators and extension 
agents to bolster their commitment and resources directed at 
producers interested in organic production and certification. 
We shall continue to promote, recognize and market certified 
organic producers in Georgia Organics' local food guide.
    Thank you again for giving me this opportunity, and I will 
look forward to answering any questions that you may have.
    [The prepared statement of Mr. Harris can be found on page 
49 in the appendix.]
    Senator Leahy. Well, thank you, Mr. Harris. And I should 
tell you, having served on this committee with two different 
chairmen, Senator Chambliss and Senator Talmadge, I recognize a 
Georgia accent, but I also appreciate your taking the time to 
be here.
    Our next witness is Michael Sligh. Would you please go 
ahead, sir?

 STATEMENT OF MICHAEL SLIGH, FOUNDING CHAIRMAN, USDA NATIONAL 
      ORGANICS STANDARDS BOARD, NATIONAL ORGANIC COALITION

    Mr. Sligh. Good morning. I am honored to be here on behalf 
of the National Organic Coalition, an alliance of farmers, 
ranchers, environmentalists, consumers and businesses working 
together to protect and enhance the integrity of organic, which 
is at the heart of continued consumer confidence. Thank you for 
this opportunity to celebrate these last 20 years of organic 
progress and to look to organic's bright future.
    As it turns out, this is a pretty long row to hoe for the 
many who have been here since the beginning, but it has been a 
very productive one. We have made real progress, and I believe 
that this founding organic legislation still serves as a model 
on how to create a successful public-private partnership in 
what I might call a very vigorous hyper-participatory and 
transparent manner.
    There, of course, have been many twists and turns, some 
serious failures to communicate, and even some major lapse of 
fair play. However, organic has survived but actually thrived 
against all the odds. And I believe that is because of a very 
unique combination of farmer innovation with marketplace 
entrepreneurship backed by very loyal customers and coupled by 
this very sound federal policy. This combination has served us 
very well, and we do indeed have much to be proud of as organic 
emerges from the margins to the mainstream.
    Organic is clearly global now with standards in over 60 
countries. We have witnessed over 20 years of continued growth, 
and the U.S. is the largest single country market in the world. 
Organic is even increasing yields in quality of life for some 
of the world's poorest farmers. To sum up, organic produces 
high yield and high quality crops while reducing adverse 
impacts on the environment and strengthening family farms.
    We also want to recognize and appreciate Congress and 
USDA's role which has been critical, particularly in the 
landmark 2008 provisions which have increased, as you have 
heard, many of the programs that are vital to promote organic, 
including the Certification Cost Share, the research, and 
greater access to crop insurance and conservation programs.
    While I believe all of these successes are exciting, as we 
look ahead, I actually believe that the real potential of 
organic is still largely untapped. Organic is actually 
providing ag-based solutions to global problems of 
environmental degradation, climate change, food safety, 
declines in health and quality of life. We need to shift our 
thinking to publicly recognize organic not just as a marketing 
program but as a food system that is delivering multiple 
societal benefits.
    So to that end, we and our organic community partners have 
just completed five years of dialogue developing a roadmap for 
organic into the future, which is the National Organic Action 
Plan which we will provide for the Committee. And this lays out 
concrete goals for the future of organic with such goals as 
continued doubling the number of organic products, farms and 
acres while ensuring fair prices to farmers, expanding research 
and training, expanding organic seed production, increasing 
local value-added processing and infrastructure, and 
implementing fair crop insurance and contracts for organic 
farms, to mention a few.
    We are also very pleased that USDA and Congress has already 
acted on several of the key recommendations in this report, 
such as increasing the funding and staffing for the NOP, the 
pasture rule and the new policy manual, USDA's renewed 
commitment to oversight and enforcement, and the appointment of 
a USDA organic coordinator.
    I also would like to point out a few of the larger societal 
overarching opportunities and challenges that have arisen from 
this report that will require your leadership and action as 
well. We have clearly heard from our stakeholders about this 
need to shift more of the responsibility for the prevention of 
GMO contamination back to the manufacturer. It is clear that 
this technology does not stay put and is threatening non-GMO 
markets. This must not be misunderstood as an issue between 
farmers or as a issue between environmentalists versus farmers, 
but really as an urgent need to bring overall rational market 
clarity and an urgent need for policy fairness, increased 
responsibility, and government oversight.
    We also would like to highlight the food safety issues and 
urge that this will require a scale-appropriate, risk-based 
approach that is compatible with the organic practices that are 
already required by USDA. Organic must been seen, especially 
based on new research, as part of the solution to the growing 
food safety crisis.
    I also want to highlight the concerns about seed 
concentration and the lack of biodiversity. As seed markets 
concentrate, farmers' seed costs have skyrocketed, and the 
diversity of public seed options have dwindled. We urgently 
need to reinvigorate our public plant and animal breeding 
capacity for a more healthy, local and nutritious diet while 
mitigating climate change through a more diverse and less 
genetically uniform agriculture. Congress has mandated this 
priority. We must urge USDA to fully implement this. This will 
be a major benefit for all farmers and society as a whole.
    You have heard earlier the need for additional funding for 
organic research. Despite the gains in the recent Farm Bill, 
organic research funding still pales in the comparison. Given 
organic's multiple benefits to society, we think the funding 
level should rise to at least meet organic's current fair 
share.
    We also need to address the need to increase access of 
organic foods through vulnerable populations. There is growing 
evidence of the public health benefits of organic, particularly 
for children, yet federal policy barriers are limiting these 
very foods to these populations. We urge that these barriers be 
removed. And finally, we need to better foster the next 
generation of organic farmers.
    So in conclusion, history will not only judge us by how 
well we have managed our resources today but by how well we 
have defended the opportunities for future generations. Now is 
the time for us to set the course ahead for organic. Thank you 
very much.
    [The prepared statement of Mr. Sligh can be found on page 
71 in the appendix.]
    Senator Leahy. Thank you very much. And as with the other 
witnesses, of course, the full statement will be put in the 
record as though given.
    Ms. Bird, please go ahead. And the same with your 
statement, too, of course.

  STATEMENT OF SARAH BIRD, SENIOR VICE PRESIDENT, MARKETING, 
 ANNIE'S HOMEGROWN; VICE PRESIDENT, ORGANIC TRADE ASSOCIATION 
                       BOARD OF DIRECTORS

    Ms. Bird. Thank you for the opportunity to provide 
testimony regarding the future of organic agriculture and food 
on this 20th anniversary of the Organic Foods Production Act. I 
am Sarah Bird, VP of marketing at Annie's, but today I speak on 
behalf of the more than 1,500 members of the Organic Trade 
Association where I serve as vice chairman of the board of 
directors.
    Passage of the Organic Foods Production Act in 1990 was a 
seminal event. It set the organic sector on a trajectory of 
growth that has lasted for 20 years. To illustrate, in 1990, 
U.S. organic sales were estimated at a billion dollars. Today 
it is a $28 billion a year industry with over $6 billion in 
farm-gate sales.
    Meanwhile, statistics from the 2008 Ag census reveal that 
despite higher production expenses, on average, U.S. organic 
farms have higher sales and higher operating profit than non-
organic farms. The survey also showed that U.S. organic farmers 
are younger than non-organic farmers, and younger farmers tend 
to be more likely to adopt organic practices.
    Organic sales grew by 20 percent a year for over a decade, 
and despite the worst recession in modern times, still grew at 
almost 6 percent in 2009. Increasingly, American families are 
choosing organic despite the tough economy. And latest reports 
from the industry indicate sales have again picked up since the 
beginning of 2010.
    Annie's has been in the thick of this growth. In 1990, 
Annie's was a small company selling mac and cheese with annual 
revenue of barely $100,000. Twenty years later, Annie's sales 
total more than $100 million per year. Our products are 
distributed nationally in retailers like Whole Foods, Kroger, 
Target and Wal-Mart.
    Annie's is now the largest U.S. buyer of U.S. organic durum 
wheat. Over the past five years, Annie's has purchased more 
than 40,000 tons of domestic organic wheat, primarily from 
Montana and North Dakota farmers. In 1997, the year organic 
acreage data was first published, there were 125,000 acres of 
organic wheat in cultivation. Now, according to the 2008 ERS 
survey, the number has more than tripled to 415,000 acres 
across 25 states, yielding over eight and a half million tons 
of organic wheat per year. Considering that current organic 
durum wheat prices are averaging over $9.50 a bushel versus 
conventional wheat at less than $5 a bushel, you can see the 
opportunity organic creates for the rural community.
    In addition to wheat, Annie's is a major buyer of organic 
cheese. According to Annie's suppliers, markets for organic 
milk and cheese solids are critical components of overall 
organic dairy profitability. In fact, every time we sell a box 
of Annie's mac and cheese, it supports family farms. Annie's 
organic cheese comes from Organic Valley cooperative and their 
over 1,600 farm members like my colleague Regina at the end of 
the table.
    We estimate this organic wheat and cheese has been cooked 
by families across America into over 800 million servings of 
Annie's mac and cheese since the passage of OFPA. And as every 
parent knows, no serving of Annie's would be complete without a 
side of carrot sticks, so it is no surprise that organic 
carrots now represent 13 percent of U.S. carrot acreage.
    The OFPA set the stage for this growth by putting in place 
one standard that businesses and consumers alike could embrace. 
OFPA established a level playing field, and the USDA organic 
seal is the critical symbol that ensures consumer trust. On 
this important anniversary of the unique public-private 
partnership that is organic, it is imperative we look forward 
and evaluate how we grow organic to the next level. This can 
only happen with continued protection of all that organic 
stands for.
    I first want to applaud the work of the NOP and its staff 
for their recent efforts to secure trust in the organic brand 
by increasing oversight of certifying agents worldwide. This 
oversight is a vital component that delivers organic integrity 
to consumers. However, today I also want to caution that 
continued success of organic requires we address two 
significant threats to the value of the organic label and we 
remove a barrier to the industry's self-generated growth.
    The first and most significant threat to organic Ag is the 
damage to global organic market from contamination of organic 
crops by genetically engineered crops. This issue is especially 
important to Annie's, as there likely will be a petition to 
deregulate GE wheat in the not-so-distant future. Regardless of 
the organic regulation's tolerance for non-intentional 
contamination, organic consumers will not tolerate GE 
contamination.
    For wheat growers that supply Annie's, inadvertent 
contamination would have real economic consequence. Annie's 
would not buy GE-contaminated wheat because our consumers 
simply will not buy the product. Such contamination forces 
manufacturers to look overseas to countries that either have 
not deregulated the GE crops or who maintain necessary 
safeguards to prevent contamination. The best picture for a 
vibrant organic economy is a vibrant U.S. production base. 
Annie's and other manufacturers like us do not want to be 
forced to source our business offshore.
    The second threat, unregulated use of the organic brand on 
products outside the scope of the current regulation will limit 
the ability of the organic sector to develop to the next level. 
The Organic Act codified an organic standard for food. Now, due 
in large part to the success of the industry over the past 20 
years, we see the term organic on many non-food products. The 
use of the organic name on products outside the scope of the 
OFPA results in consumer confusion. At Annie's, we have 
developed a deep understanding of organic consumers and their 
expectations of the organic brand.
    Whether for drycleaners or personal care products, 
proliferation of organic claims on products that frankly may 
not be organic limit consumers' ability to fully embrace 
organic agricultural products in their lives. Addressing this 
issue will require resources and coordination between agencies.
    Switching to my third opportunity area is the barrier to 
growth, the tremendous need for public education about both the 
many benefits of organic agricultural products and the meaning 
of the organic seal. We must make sure consumers understand the 
value of federally-regulated and verified organic claims as 
opposed to unregulated and undefined claims such as natural. 
Whether this education comes from the USDA itself or through 
industry self-help, OTA members, both farmers and 
manufacturers, have identified public education as the number 
one policy priority.
    Unlike other commodities, organic has no opportunity to 
pull funds for an AMS-administered research and promotion 
program. Can you imagine a ``Got Milk'' type of campaign for 
organics? We ask the Committee to be open to remedies in this 
regard.
    In summary, organic has made its mark on agriculture and 
American families' consumption habits over the past 20 years. 
Education and trust in the organic brand will drive demand for 
organic products and create opportunities for U.S. agriculture, 
create jobs, and encourage self-reliance in rural communities 
while improving the environment and public health of the nation 
for the next 20 years. Thank you.
    [The prepared statement of Ms. Bird can be found on page 38 
in the appendix.]
    Senator Leahy. Thank you very much.
    Mr. Sligh, you referred to the question, which is on many 
of our minds, of encouraging young farmers to come into organic 
farming. And Mr. Harris, you come from different backgrounds.
    I was looking at, Mr. Harris, at your brochure from the 
days of Captain James Everett Harris and right down to the 
current time. And it is a wonderful sequence, and we have some 
farms like that in our state. But the average age of farmers 
now in this country is 57. Some of us do not consider that all 
that old.
    [Laughter.]
    Senator Leahy. But fewer young people are choosing to stay 
on or return to the farm. How do you develop--I will start with 
you, Ms. Beidler, first. But how do you encourage young people 
to come and go into farming?
    Ms. Beidler. It is interesting because we have been part of 
some discussions in Vermont as diverse as land conservation to 
legislative policy, where farmers are asked to testify. And the 
comments that come out are why should we worry about future 
generations, no one is going to want to farm anyway. And 
unfortunately, I think that is too often an expressed concern 
in our agricultural communities as people do not see 
opportunity, either financial opportunity or opportunity to 
access land or the resources they need to continue to farm.
    I think that is one of the ways that organic has addressed 
very well. As I mentioned in my comments, if you can get 
through the certification process and you find a market, then 
you are offered a fair and sustained pay price that allows 
people to farm profitably, to pay down debt that they owe on 
farms and to get to an age of retirement where they have 
something left over. And I think that is as modest as our 
expectations often are as farmers, is to have that kind of 
expectation, and I think organic has allowed that to happen.
    Senator Leahy. Mr. Harris, I know you noted in your 
testimony the huge growth of organic farms in Georgia in the 
last 10 years, of course, but the Southeast still lags a lot in 
this growth.
    What do you say for young people? I mean, in some ways you 
have a unique situation in your family and expanding and 
changing with the times, the things you are doing 
environmentally and the self-contained, which is a model. But 
do you worry about young people coming into farming?
    Mr. Harris. Yes, sir. Farming offers a lifestyle that 
either appeals to or does not appeal to the individual. The 
problem that we have had is that for those it appealed to, it 
was a poor way to make a living. There simply was not enough 
profit there to justify the risk involved. The risk to reward 
ratio has been bad.
    Our business is now profitable. We believe that we are 
getting a reasonable return on the capital we have got invested 
in our business. And I felt free to urge my daughter to come 
back. My father did not urge me to come back for the same 
reasons. This feeling, this niche market, has offered us the 
profitability to justify me encouraging my family to come back 
if they so desire.
    Senator Leahy. You are right what you said about the way of 
life, and that is a significant part of it. But you also want 
to be able to make a profit. You also want to be able to send 
your kids to school and do all the other things you do.
    Mr. Sligh, you heard us talking about organic and the 
organic standards and wanting to make that work. Then I see 
this label natural, which worries me as a way to kind of jump 
onto the popularity of organics without doing the work. It is 
easy in our state to complain about somebody trying to make it 
look like it is maple syrup when it is not, and that is a 
multi-million-dollar business in our state. But there is a lot 
more to it than that, whether it is bread or milk or Annie's 
Cheddar Bunnies or whatever else.
    How do we handle this? Do you see this as a problem?
    Mr. Sligh. Yes, I think it is, and we have spoke with many 
of the consumer groups about this topic and heard from them as 
well, that this is an issue that we need to deal with. But 
particularly, we need to look at both better education about 
what organic is so that it is better differentiated, because we 
have looked at some studies that consumers do not really 
understand the difference, in some cases, between that choice 
at the point of purchase, when they go to the store and they 
see the natural and they see the organic, and they think well, 
the natural looks a little bit cheaper, maybe I will take that 
one today; it is probably about the same. So I think we have to 
do a better job of educating what the organic value is so they 
understand that.
    Secondly, there may need to be additional activity around 
the natural. I know that there was a panel back in the '60s 
that actually took up the task of trying to define natural. And 
if I recall correctly, they failed in their task, and we did 
try to study that in doing the organic label because they could 
not come to consensus on what that was. And so I do recognize 
that would not be an easy task, but I really think we should 
start by emphasizing more what the organic differentiation is.
    Senator Leahy. Well, I do, too.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Mr. Harris, you have got one of the few federally-
inspected, on-farm processing facilities in the country. In 
your experience in qualifying for federal inspection, was it 
difficult to the point to where you had to think long and hard 
about doing it? And now as you are moving towards seeking 
certification for a chicken processing facility, are there some 
lessons learned that we can look at and recommend to USDA--you 
can recommend to USDA--to speed up that process, streamline the 
process, or allow you to reach the end result in a more 
efficient and economical manner?
    Mr. Harris. Yes, sir. Constructing and beginning the 
operation of a USDA-inspected meat plant is very difficult. 
There is a great financial barrier for entry. It is very 
expensive. Probably the most difficult part, segment, of the 
approval process is wastewater. And I really think that 
anything that could be done to make that process more 
streamlined and simplified would be most beneficial.
    Certainly, the risk involved is the worst obstacle towards 
having more on-farm plants. And the primary risk that I think 
could be mitigated is the plant operator has to build the plant 
and then get the walk-through to see if he will be granted a 
certificate of inspection. And in our case, we spent $2.3 
million building the plant, and then one day a man came to see 
us and he was going to tell us whether we could use it or not, 
and that is a little nerve-racking.
    [Laughter.]
    Mr. Harris. And we are facing that now with this poultry 
plant. Of course, it will not cost nearly as much money. But if 
there could be some sort of outreach from the USDA Inspection 
Service telling us upfront, if you will build this, you will be 
given or granted inspection, that would really take a lot of 
the risk out of it, and I would appreciate that.
    Senator Chambliss. That is a commonsense solution, and 
unfortunately, not a lot of common sense is around this town. 
We have to try to help inject some of that occasionally.
    Mr. Harris, again, according to USDA's Economic Research 
Service, the number of certified organic acres in Georgia has 
increased from 1,062 to 4,300 from '06 to '08. However, in that 
same time, the number of certified operations has changed from 
69 in '06, to 121 in '07, to 67 in '08.
    Does that trend of increase in acres but lessening the 
number of certified operations indicate anything to you or in 
your capacity as president of the Georgia Organic Board? Is 
this being discussed, thought through, or of concern to you?
    Mr. Harris. No, sir, not really. And I do not--I cannot say 
that I absolutely know why that happens, but I think--I have a 
belief. I believe that probably what happens is smaller growers 
who are direct marketing at farmers' markets and such are 
probably choosing to continue to grow organically but not 
certify their crops. I think that certifications--the organic 
certification is valuable to all producers and all consumers 
but is less valuable to small producers who direct market and 
know their customers, their customers know them. They probably 
do farm visits. They have the credibility without having to go 
through the certification.
    Farmers who sell to resellers, which in my case is what 
occurs, needs the certifications because I do not know all the 
people that buy my beef, and I do not see them every Saturday 
morning. We have a lot of visitors. We operate with full 
transparency. We sell beef, -as I said earlier, from Florida to 
New Jersey.
    So I think that the acreage has increased. I think the 
number of people growing crops organically in Georgia has 
increased. Certainly, the membership role of Georgia Organics 
has increased. But many of those small producers are probably 
simply choosing to not certify, which would create the numbers, 
situation that you mentioned.
    Senator Chambliss. Ms. Bird, I look forward to taking these 
products you brought to us back to my office and having my 
snack here. I notice, though, on your package of the Cheddar 
Bunnies, you say they are 80 percent organic; on the Bunny 
Grahams, 75 percent organic.
    How do you get 75 or 80 percent organic and what is the 
other 20 and 25 percent?
    Ms. Bird. These products meet the 70 percent threshold, so 
we can make the ``made with'' claim. And wheat is the primary 
ingredient in both of those that is getting us to that 
percentage that is the 80 or 75 percent. So the other 
ingredients are not--they are natural. So they are not 
organically certified. We do have organic Cheddar Bunnies as 
well that are at the 95 percent level.
    Senator Chambliss. Okay. Is the wheat that you use by 
chance gluten-free?
    Ms. Bird. Not in those products, but we do have a line that 
is gluten-free.
    Senator Chambliss. Mr. Sligh, what is the biggest obstacle 
on the conversion of a traditional farm to an organic farm? 
What are folks looking at and thinking, gee, do I really want 
to do this? What is causing concern there?
    Mr. Sligh. Well, I think it depends, of course. But the one 
thing that I think we need to do to strengthen that is to 
really have more farms and non-profits and extension and 
university personnel that are all trained to help with this 
activity. And we have seen cases where other farmers have been 
able to be a very valuable mentor to farms in making that 
conversion because, really, you have to first change your mind-
set a bit. And once you have done that, you need to find 
someone who has been successful in doing it so that you can 
avoid the natural firsthand mistakes that you are going to do. 
And also, many times farms that are successful do not 
transition the whole farm at one time but maybe take a section 
at a time so that it is over a time where they build the 
confidence.
    So I think it is a package of resources and extension and 
help that really these farms need to be encouraged in this 
direction. And also, I think the federal programs could be 
tightened up a bit to be more focused to help with this actual 
transition.
    Senator Chambliss. Speaking of that, Mr. Harris, do we have 
any ongoing so-called experts at the experiment station, either 
Tifton or Griffin, that are able to give you any help with your 
operation, or are you pretty much on your own with respect to 
outside expertise?
    Mr. Harris. No, sir. I think Georgia is in good shape. Dean 
Scott Angle, UGA College of Agriculture, has really reached 
out. He has visited my farm four times, and it is 250 miles to 
Athens. He has appointed Julia Gaskin as director of 
sustainability. I am not sure of that title, but that is what 
she does.
    Georgia is a state, an agricultural economy, as you know, 
and 90-plus percent of that is commodity production. But I 
really feel supported by the University of Georgia. I think 
they are doing a good job for us, and I appreciate it. The hard 
part for me was not getting resources and not knowing what to 
do; it was economic. It was three years of giving up the tools 
to help me raise crops cheap, fertilizer particularly, 
pesticides as well, but not getting the premium on the product 
because it was not certified organic. That transition, the 
economic transition, is very difficult.
    Senator Chambliss. Well, thank all of you very much.
    Senator Leahy. Thank you.
    Just one thing, if I might, Ms. Beidler, while I have you 
here, because going back again and looking at your testimony, 
you talk about GMO contamination, what would happen in the case 
of a farmer who at best might lose that one particular crop, or 
in the worst case may lose organic certification, even lose his 
or her livelihood if GMO contamination became so pervasive that 
the export market for certain organic products just 
disappeared.
    I know the Secretary of Agriculture has said this and I 
have heard it many times before, we have to find a way for 
organic and GMO to co-exist, but I am worried about where the 
question of liability lies. You suggested that liability should 
lie with the seed companies who are benefiting financially from 
the sale of the products.
    In our own state of Vermont, we had a piece of legislation 
several years ago pass the state legislature. As I recall, 
overwhelmingly, Republicans and Democrats voted for it. But it 
was eventually vetoed by the governor who said it was 
unnecessary, would have caused manufacturers to raise prices or 
possibly restrict seed sales to Vermont.
    What do we do? You and Mr. Harris and everybody else are 
all playing by the rules. What do you do with this possibility 
of something coming from outside, something you have no control 
over?
    Ms. Beidler. It has unfortunately been a terribly divisive 
issue in our state and across the country, and unfortunately, 
it often falls along organic and conventional farming lines. 
And I was glad to see it came up in the testimony of not just 
my testimony but my colleagues as well.
    Up until now, a lot of the responsibility for making sure 
there has not been as much opportunity for cross pollination or 
contamination has rested with organic farmers. We build in 
buffer zones on our property between conventional and organic 
farmland, not only for GMO crops but also for any other use of 
chemical fertilizers and pesticides and other pieces. And we 
have been told that our responsibility is to go to our 
conventional neighbors, ask them if they are growing GMO crops, 
and noting whether they do or not, and that possibly we could 
plant our crops later so that they flower later so the 
pollination risk drops. All of it is not a good solution to us 
as organic farmers. It basically says tough luck. Either do not 
grow it or take the risk that it could be cross pollinated.
    With the perennial crops we are talking about now, which 
includes alfalfa, and I have even heard talk of clover, those 
are perennial crops that come back year after year. They are 
essential in our pastures. They are essential in our hayfields. 
We have ceded ground on some other genetically modified crops 
and have learned how to either not plant or to plant in ways 
that we can minimize the risk. But when a bee can pollinate 10, 
20 miles, you cannot not cross-pollinate alfalfa. So basically, 
you are saying to organic farmers, we are going to take alfalfa 
out of your toolbox to be able to utilize, and that is 
untenable to us.
    The other thing that I find really interesting is there was 
a really good article in the Christian Science Monitor that 
just came out a few days ago, talking about not only the 
increased amount of Roundup resistant weeds that are coming 
across the Southeast and into the Midwest, but also the fact 
that farmers are starting to look at the technology, the costs 
of the technology, and saying maybe this is not as much of an 
advantage as we thought. So rather than saying, yes, our 
baseline is that this is an advantage to farmers that we cannot 
take away, let's look critically at that and see how much of an 
advantage there is and who is really getting the benefit from 
that. And I do not believe it is the farmers.
    Senator Leahy. Thank you.
    Ms. Bird, did you want to add anything to that or anybody 
else?
    Mr. Sligh. Well, I would just add that I think the 
experience in Vermont and the piece of legislation that you had 
in Vermont, I think was headed in the right direction because, 
indeed, it did create some clarity in the marketplace and place 
the responsibility really where it belonged. And I think that 
has been the difficulty thus far, is that the farmers who do 
not benefit at all are bearing the largest burden for the cost. 
And so it is really about reassigning the liability so that the 
farmers who do not benefit are not paying the bill.
    Senator Leahy. I try never to tell the Vermont--or suggest 
to the Vermont legislature what they should do in the vain hope 
that they would return the compliment.
    [Laughter.]
    Senator Leahy. But I think they were on the right track on 
this.
    Mr. Harris, I saw you smiling down there. Did you have 
something you wanted to add to that?
    Mr. Harris. No, sir. I think that Ms. Beidler said it very 
succinctly. It is really not--we do not grow alfalfa in the 
coastal plain of Georgia, so it is not directly the issue in my 
production system. But I certainly empathize with her and 
respect that situation.
    Senator Leahy. I want to thank all of you for coming here. 
Unfortunately, we are down to the last two or three weeks 
before recess for the mid-term elections. And so I have had 
senators, both Republics and Democrats, tell me they wanted to 
be here, but they are on about four other committees at the 
same time. And I notice their staffs have been here. Certainly, 
Senator Lincoln, the chair of the Committee, it is the same 
way. And I will make sure we get summaries to them. This has 
been well worthwhile. I have enjoyed doing this.
    Ms. Beidler, I want to come by at some point and bring--I 
was showing your testimony to my wife, and come by one of these 
times we are there, come by the farm.
    Mr. Harris, I would love to come down and visit yours. I do 
not get to Georgia very often but----
    Mr. Harris. You all come.
    [Laughter.]
    Senator Leahy. Thank you. Senator Chambliss told me he 
would stamp my visa and tell me how to get there.
    [Laughter.]
    Senator Leahy. I could come down. I guess you have a quota, 
a certain number of Northerners allowed in there periodically.
    Mr. Harris. Yes, we call it the Macon-Dixon line. It goes 
through Macon, Georgia.
    [Laughter.]
    Senator Leahy. I love it. Thank you.
    With that, I cannot top that, so we will stand recessed.
    [Whereupon, at 11:49 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           September 15, 2010



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T6275.001

[GRAPHIC] [TIFF OMITTED] T6275.002

[GRAPHIC] [TIFF OMITTED] T6275.003

[GRAPHIC] [TIFF OMITTED] T6275.004

[GRAPHIC] [TIFF OMITTED] T6275.005

[GRAPHIC] [TIFF OMITTED] T6275.006

[GRAPHIC] [TIFF OMITTED] T6275.007

[GRAPHIC] [TIFF OMITTED] T6275.008

[GRAPHIC] [TIFF OMITTED] T6275.009

[GRAPHIC] [TIFF OMITTED] T6275.010

[GRAPHIC] [TIFF OMITTED] T6275.011

[GRAPHIC] [TIFF OMITTED] T6275.012

[GRAPHIC] [TIFF OMITTED] T6275.013

[GRAPHIC] [TIFF OMITTED] T6275.014

[GRAPHIC] [TIFF OMITTED] T6275.015

[GRAPHIC] [TIFF OMITTED] T6275.016

[GRAPHIC] [TIFF OMITTED] T6275.017

[GRAPHIC] [TIFF OMITTED] T6275.018

[GRAPHIC] [TIFF OMITTED] T6275.019

[GRAPHIC] [TIFF OMITTED] T6275.020

[GRAPHIC] [TIFF OMITTED] T6275.021

[GRAPHIC] [TIFF OMITTED] T6275.022

[GRAPHIC] [TIFF OMITTED] T6275.023

[GRAPHIC] [TIFF OMITTED] T6275.024

[GRAPHIC] [TIFF OMITTED] T6275.025

[GRAPHIC] [TIFF OMITTED] T6275.026

[GRAPHIC] [TIFF OMITTED] T6275.027

[GRAPHIC] [TIFF OMITTED] T6275.028

[GRAPHIC] [TIFF OMITTED] T6275.029

[GRAPHIC] [TIFF OMITTED] T6275.030

[GRAPHIC] [TIFF OMITTED] T6275.031

[GRAPHIC] [TIFF OMITTED] T6275.032

[GRAPHIC] [TIFF OMITTED] T6275.033

[GRAPHIC] [TIFF OMITTED] T6275.034

[GRAPHIC] [TIFF OMITTED] T6275.035

[GRAPHIC] [TIFF OMITTED] T6275.036

[GRAPHIC] [TIFF OMITTED] T6275.037

[GRAPHIC] [TIFF OMITTED] T6275.038

[GRAPHIC] [TIFF OMITTED] T6275.039

[GRAPHIC] [TIFF OMITTED] T6275.040

[GRAPHIC] [TIFF OMITTED] T6275.041

[GRAPHIC] [TIFF OMITTED] T6275.042

[GRAPHIC] [TIFF OMITTED] T6275.043

[GRAPHIC] [TIFF OMITTED] T6275.044

[GRAPHIC] [TIFF OMITTED] T6275.045

[GRAPHIC] [TIFF OMITTED] T6275.046

[GRAPHIC] [TIFF OMITTED] T6275.047

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 15, 2010



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T6275.048

[GRAPHIC] [TIFF OMITTED] T6275.049

[GRAPHIC] [TIFF OMITTED] T6275.050

[GRAPHIC] [TIFF OMITTED] T6275.051

[GRAPHIC] [TIFF OMITTED] T6275.052

[GRAPHIC] [TIFF OMITTED] T6275.053

[GRAPHIC] [TIFF OMITTED] T6275.054

[GRAPHIC] [TIFF OMITTED] T6275.055

[GRAPHIC] [TIFF OMITTED] T6275.056

[GRAPHIC] [TIFF OMITTED] T6275.057

[GRAPHIC] [TIFF OMITTED] T6275.058

[GRAPHIC] [TIFF OMITTED] T6275.059

[GRAPHIC] [TIFF OMITTED] T6275.060

[GRAPHIC] [TIFF OMITTED] T6275.061

[GRAPHIC] [TIFF OMITTED] T6275.062

[GRAPHIC] [TIFF OMITTED] T6275.063

[GRAPHIC] [TIFF OMITTED] T6275.064

[GRAPHIC] [TIFF OMITTED] T6275.065

[GRAPHIC] [TIFF OMITTED] T6275.066

[GRAPHIC] [TIFF OMITTED] T6275.067

[GRAPHIC] [TIFF OMITTED] T6275.068

[GRAPHIC] [TIFF OMITTED] T6275.069

[GRAPHIC] [TIFF OMITTED] T6275.070

[GRAPHIC] [TIFF OMITTED] T6275.071

[GRAPHIC] [TIFF OMITTED] T6275.072

[GRAPHIC] [TIFF OMITTED] T6275.073

[GRAPHIC] [TIFF OMITTED] T6275.074

[GRAPHIC] [TIFF OMITTED] T6275.075

[GRAPHIC] [TIFF OMITTED] T6275.076

[GRAPHIC] [TIFF OMITTED] T6275.077

[GRAPHIC] [TIFF OMITTED] T6275.078

[GRAPHIC] [TIFF OMITTED] T6275.079

[GRAPHIC] [TIFF OMITTED] T6275.080

[GRAPHIC] [TIFF OMITTED] T6275.081

[GRAPHIC] [TIFF OMITTED] T6275.082

[GRAPHIC] [TIFF OMITTED] T6275.083

[GRAPHIC] [TIFF OMITTED] T6275.084

[GRAPHIC] [TIFF OMITTED] T6275.085

[GRAPHIC] [TIFF OMITTED] T6275.086

[GRAPHIC] [TIFF OMITTED] T6275.087

[GRAPHIC] [TIFF OMITTED] T6275.088

[GRAPHIC] [TIFF OMITTED] T6275.089

[GRAPHIC] [TIFF OMITTED] T6275.090

[GRAPHIC] [TIFF OMITTED] T6275.091

[GRAPHIC] [TIFF OMITTED] T6275.092

[GRAPHIC] [TIFF OMITTED] T6275.093

[GRAPHIC] [TIFF OMITTED] T6275.094

[GRAPHIC] [TIFF OMITTED] T6275.095

[GRAPHIC] [TIFF OMITTED] T6275.096

[GRAPHIC] [TIFF OMITTED] T6275.097

[GRAPHIC] [TIFF OMITTED] T6275.098

[GRAPHIC] [TIFF OMITTED] T6275.099

[GRAPHIC] [TIFF OMITTED] T6275.100

[GRAPHIC] [TIFF OMITTED] T6275.101

[GRAPHIC] [TIFF OMITTED] T6275.102

[GRAPHIC] [TIFF OMITTED] T6275.103

[GRAPHIC] [TIFF OMITTED] T6275.104

[GRAPHIC] [TIFF OMITTED] T6275.105

[GRAPHIC] [TIFF OMITTED] T6275.106

[GRAPHIC] [TIFF OMITTED] T6275.107

      
=======================================================================


                         QUESTIONS AND ANSWERS

                           September 15, 2010



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T6275.108

[GRAPHIC] [TIFF OMITTED] T6275.109

[GRAPHIC] [TIFF OMITTED] T6275.110

[GRAPHIC] [TIFF OMITTED] T6275.111

[GRAPHIC] [TIFF OMITTED] T6275.112

[GRAPHIC] [TIFF OMITTED] T6275.113

[GRAPHIC] [TIFF OMITTED] T6275.114

[GRAPHIC] [TIFF OMITTED] T6275.115

[GRAPHIC] [TIFF OMITTED] T6275.116

[GRAPHIC] [TIFF OMITTED] T6275.117

[GRAPHIC] [TIFF OMITTED] T6275.118

[GRAPHIC] [TIFF OMITTED] T6275.119

[GRAPHIC] [TIFF OMITTED] T6275.120

[GRAPHIC] [TIFF OMITTED] T6275.121

[GRAPHIC] [TIFF OMITTED] T6275.122

[GRAPHIC] [TIFF OMITTED] T6275.123


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
